C'OCKLE
2311 Douglas Street CA
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,

v.
CITY OF PHILADELPHIA, ET AL.,

Respondents.

AFFIDAVIT OF SERVICE

Legal Briefs

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of August, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu
Counsel for Amicus Curiae

Subscribed and sworn to before me this 26th day of August, 2019.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

 

Affiant

38578
19-123
Fulton, et al. v. City of Philadelphia, et al.

Service List

Attorneys for Petitioners

Mark Leonard Rienzi
Counsel of Record
The Becket Fund for Religious Liberty
1200 New Hampshire Ave NW
Suite 700
Washington, DC 20036
rienzi@law.edu
(202) 955-0095

Attorneys for Respondents

Deepak Gupta

Gupta Wessler PLLC
1900 L Street, NW

Suite 312

Washington, DC 20036
deepak@guptawessler.com
(202) 888-1741

Attorneys for Intervenors

Leslie Cooper

American Civil Liberties Union
125 Broad Street, 18 Floor
New York, NY 10004
LCOOPER@aclu.org

(212) 549-2584
